                                                                Issue Date
                                                                     July 24, 2007
                                                                Audit Report Number
                                                                    2007-PH-1009




TO:        William D. Tamburrino, Director, Baltimore Public Housing Program Hub,
            3BPH




FROM:


SUBJECT:   The Newport News Redevelopment and Housing Authority, Newport News,
            Virginia, Did Not Effectively Operate Its Housing Choice Voucher Program



                                  HIGHLIGHTS

 What We Audited and Why

           We audited the Newport News Redevelopment and Housing Authority’s
           (Authority) Section 8 Housing Choice Voucher program (program). The audit
           was part of the activities in our fiscal year 2006 annual audit plan. We selected
           the Authority based upon our analysis of various risk factors relating to the
           housing authorities under the jurisdiction of HUD's Baltimore field office. Our
           objective was to determine whether the Authority managed its program in
           accordance with U.S. Department of Housing and Urban Development (HUD)
           requirements.

 What We Found

           The Authority often did not operate its program in accordance with HUD
           requirements and regulations. It often failed to ensure that its program housing
           stock met housing quality standards, did not adequately support housing
           assistance payments, and incorrectly calculated housing assistance payments. Of
           the 66 housing units inspected, 54 did not meet HUD’s housing quality standards,
           and 28 had 98 violations that existed at the time of the Authority’s previous
           inspection. This resulted in $110,850 in housing assistance payments and
           administrative fees paid by HUD for units that were not decent, safe, and sanitary.
           We also estimated that over the next year, HUD will pay more than $4 million in
           housing assistance payments on units with material housing quality standards
           violations. Additionally, 48 of the 74 tenant files reviewed did not contain the
           documentation required by HUD and the Authority’s program administrative
           plan, resulting in $262,287 in unsupported housing assistance payments and
           administrative fees. The Authority also incorrectly calculated housing assistance
           payments, resulting in $7,523 in overpayments and $7,197 in underpayments
           from January 2004 through March 2006.

What We Recommend

           We recommend that the director of HUD’s Baltimore Public Housing Program
           Hub require the Authority to ensure that housing units inspected during the audit
           are repaired to meet HUD’s housing quality standards, implement adequate
           procedures and controls to ensure that program units meet housing quality
           standards to prevent an estimated $4 million from being spent on units with
           material housing quality standards violations, reimburse its program from
           nonfederal funds for the improper use of $110,850 in program funds, and provide
           documentation or reimburse its program $262,287 from nonfederal funds for
           unsupported housing assistance payments and administrative fees. Lastly, we
           recommend that HUD require the Authority to repay $7,523 in housing assistance
           overpayments and reimburse tenants $7,197 in housing assistance underpayments.

           For each recommendation without a management decision, please respond and
           provide status reports in accordance with HUD Handbook 2000.06, REV-3.
           Please furnish us copies of any correspondence or directives issued because of the
           audit.

Auditee’s Response


           We provided our discussion draft audit report to the Authority’s executive director
           and HUD officials on June 1, 2007. We held an exit conference with the Authority’s
           executive director on June 21, 2007. The Authority provided written comments to
           our draft report on June 26, 2007. The Authority acknowledged its program could
           be improved but disagreed with the severity of the findings. We included the
           Authority’s response, without the attachments, as appendix B of this report. We did
           not include the attachments because of the size of the attachments. The Authority’s
           complete response, including attachments, is available upon request.



                                            2
                              TABLE OF CONTENTS

Background and Objectives                                                           4

Results of Audit

        Finding 1: The Authority Did Not Adequately Enforce HUD’s Housing Quality   5
        Standards
        Finding 2: The Authority Lacked Adequate Controls over Housing Assistance   11
        Payments

Scope and Methodology                                                               14

Internal Controls                                                                   16

Appendixes
   A.   Schedule of Questioned Costs and Funds to Be Put to Better Use              18
   B.   Auditee Comments and OIG’s Evaluation                                       19
   C.   Criteria                                                                    22
   D.   Results of Tenant File Reviews                                              28
   E.   Housing Assistance Payment Errors                                           30




                                              3
                     BACKGROUND AND OBJECTIVES

The Newport News Redevelopment and Housing Authority (Authority) was established in 1938
to create affordable housing, viable neighborhoods, and opportunities for self-sufficiency that
enhance the quality of life for all citizens of Newport News. A seven-member board of
commissioners governs the Authority. The Authority’s executive director is Karen R. Wilds. Its
main administrative office is located at 227 27th Street in Newport News, Virginia.

The Authority manages 2,151 public housing units and administers approximately 2,200 housing
choice vouchers under consolidated annual contributions contracts with the U.S. Department of
Housing and Urban Development (HUD). The consolidated annual contributions contract
defines the terms and conditions under which the Authority agrees to develop and operate all
projects under the agreement. HUD authorized the Authority the following financial assistance
from fiscal years 2004 to 2005:

•      $26.7 million to provide housing assistance through tenant-based housing choice
       vouchers.

Our objective was to determine whether the Authority operated its Section 8 Housing Choice
Voucher program (program) in accordance with federal and HUD requirements. Specifically, we
wanted to determine whether program units meet the housing quality standards in accordance
with HUD requirements, whether the Authority’s program files comply with HUD guidelines,
and whether the housing assistance payments and rents are correctly calculated.




                                               4
                                RESULTS OF AUDIT

Finding 1: The Authority Did Not Adequately Enforce HUD’s Housing
Quality Standards
Of 66 program units selected for inspection, 54 failed to meet housing quality standards. The
deficiencies occurred because the Authority did not exercise proper supervision and oversight of
its program unit inspections. Also, the Authority was unable to track its annual program unit
inspections. It also lacked adequate procedures and controls to ensure that its program units met
HUD’s housing quality standards. As a result, it did not use $110,850 in program funds for units
that were decent, safe, and sanitary. Based on our inspections, we estimate that over the next
year, HUD will pay more than $4 million in housing assistance payments for units with material
violations of housing quality standards.



 Section 8 Tenant-Based
 Housing Units Were Not in
 Compliance with HUD’s
 Housing Quality Standards


              We statistically selected 66 units from a housing assistance payment check
              register, which indicated that 1,882 tenants were under lease from August 1 to
              August 31, 2006. The 66 units were selected to determine whether the Authority
              ensured that the units in its program met housing quality standards. Audit staff
              inspected 10 of the 66 units, and our appraiser inspected the remaining 56 units.

              Of the 66 units inspected, 54 (81 percent) had 316 housing quality standards
              violations. Additionally, 28 of the 66 units either had multiple material violations
              that predated the Authority’s last inspection but were not identified by Authority’s
              inspector or had 24-hour health and safety violations that predated the Authority’s
              last inspection. Of the 28 units that materially failed, there were 98 violations that
              existed before the last inspection report. The following table categorizes the 316
              housing quality standards violations in the 54 units.




                                                5
                             Category of violations        Number
                                                              of
                                                          violations
                         Electrical                           82
                         Wall                                 33
                         Security                             28
                         Range/refrigerator                   18
                         Water heater                         18
                         Exterior surface                     17
                         Floor                                17
                         Flush toilet/fixed wash basin        10
                         Window                               10
                         Evidence of infestation               9
                         Lead-based paint                      9
                         Ventilation/plumbing                  8
                         Heating equipment                     7
                         Ceiling                               6
                         Stair, rails, and porches             6
                         Tub or shower unit                    6
                         Smoke detector                        5
                         Fire exits                            5
                         Roof/gutters                          5
                         Interior air quality                  5
                         Garbage and debris                    4
                         Sink                                  3
                         Access to unit                        2
                         Foundation                            1
                         Interior stairs                       1
                         Space for preparation,                1
                         storage, and serving of food
                                      Total                  316

            We presented the results of the housing quality standards inspections to the
            Authority’s public housing director and to HUD’s Richmond, Virginia, director of
            public housing on January 12, 2007. The Authority has taken the action to notify
            owners of the violations identified during our inspections.

Electrical Violations Were
Found


            Eighty-two electrical violations were present in 42 of the Authority’s program
            units inspected. The following items are examples of electrical violations listed in
            the table: outlets with open grounds, no cover on junction box, ground fault
            circuit interrupters do not trip, and loose wires.
                                             6
Client Identification
#020467: The
disconnect for the air
conditioner was missing
an internal fixed cover.




Client Identification
#014689: The power
line and junction box
were loose.




Wall Violations Were Found

                Thirty-three wall violations were present in 24 of the Authority’s program units
                inspected. The following items are examples of the wall violations listed in the
                table: loose or broken stairway handrail brackets, loose tiles next to the tub, and
                wall around bathtub leaks.




                                                 7
 Client Identification
 #025757: There was
 tape around the tub
 water valves to stop a
 leak.




Security Violations Were Found

               Twenty-eight security violations were present in 18 of the Authority’s program
               units inspected. The following items are examples of the security violations: no
               strike plate on entry door frame and delaminating door in the left rear bedroom,
               loose doorknob, and closet doors out of track in the left rear bedroom.
Client Identification
#030245: The kitchen
entry door jam was
broken.




                                               8
The Violations Were Caused by
Inadequate Procedures and
Controls

             The housing quality standards violations existed because the Authority failed to
             exercise proper supervision and oversight of its program unit inspections. It also
             lacked adequate procedures and controls to ensure that its program units met
             HUD’s housing quality standards. The current senior assisted housing inspector
             stated that she could not inspect the units as thoroughly as the Office of Inspector
             General’s (OIG) appraiser because she did not have the time or resources.
             Authority officials terminated the employment of the former senior assisted
             housing inspector shortly after we informed them that 8 of 10 units we initially
             inspected failed to meet minimum housing quality standards. Officials attributed
             the Authority’s failure on the housing quality standards portion of the Section 8
             management assessment program certification for two consecutive years to the
             former senior assisted housing inspector. Additionally, they stated that the former
             senior assisted housing inspector sometimes passed units with significant
             discrepancies, methods for assigning inspections were flawed, units were not
             inspected in a timely manner, and inspections were often incomplete. An
             Authority official also acknowledged that a lack of close supervision on the part
             of the former senior assisted housing inspector probably contributed to the high
             housing quality standards failure rate.

             Also, the Authority lacked an adequate system for tracking and documenting its
             housing quality standards inspections. HUD requirements state that housing
             quality standards inspections are to be conducted annually. According to
             Authority officials, their automated system could not produce reports identifying
             the date of the last inspection, the results of the inspection, and the date of the
             next inspection. Therefore, HUD has no assurance unit inspections were
             conducted annually.

Conclusion

             The Authority’s tenants were subjected to health- and safety-related violations, and
             the Authority did not properly use its program funds when it failed to ensure that
             units complied with HUD’s housing quality standards. The Authority disbursed
             $101,646 in housing assisting payments to landlords for the 28 units that
             materially failed to meet HUD’s housing quality standards and received $9,204 in
             program administrative fees.

             If the Authority implements adequate procedures and controls over its unit
             inspections to ensure compliance with HUD’s housing quality standards, we
             estimate that more than $4 million in future housing assistance payments will be
             spent for units that are decent, safe, and sanitary. We determined this amount by

                                               9
          multiplying 613 units as our conservative estimate (estimate that would be in
          material noncompliance with housing quality standards if appropriate actions are
          not taken by the Authority) times $6,655 (average annual housing assistance
          payment of each housing unit).

Recommendations

          We recommend that the director of HUD’s Baltimore Public Housing Program
          Hub require the Authority to

          1A.     Certify that the owners of the 54 program units cited in this finding have
                  repaired the units with housing quality standards violations.

          1B.     Reimburse HUD’s program $110,850 from nonfederal funds ($101,646
                  for housing assistance payments and $9,204 in associated administrative
                  fees) for the 28 units that materially failed to meet HUD’s housing quality
                  standards.

          1C.     Implement adequate procedures and controls to ensure that all units meet
                  HUD’s housing quality standards to prevent $4,079,515 in program funds
                  from being spent on units that do not comply with the standards.

          1D.     Implement a system to adequately track and document housing quality
                  inspections.




                                            10
Finding 2: The Authority Lacked Adequate Controls over Housing
Assistance Payments
The Authority did not comply with HUD regulations or its program administrative plan
regarding housing assistance payments. It often lacked adequate documentation to substantiate
the housing assistance payments it made to program landlords, and it incorrectly calculated some
housing assistance payments. These problems occurred because the Authority did not have
adequate procedures and controls in place to ensure that it properly followed HUD regulations
and its own program administrative plan. As a result, it was unable to support $240,521 in
housing assistance payments, and it overpaid $7,523 and underpaid $7,197 in housing assistance.


 The Authority Lacked
 Documentation to Support
 More Than $240,000 in Housing
 Assistance Payments


              The Authority lacked documentation to support housing assistance payments
              totaling $240,521 for the period January 2004 through March 2006. Of the 74
              tenant files reviewed 48 (65 percent) had the following missing or incomplete
              documents:

                  ¾ Forty did not contain rent reasonableness surveys to support rent
                    increases;
                  ¾ Eight did not have documentation to support reexaminations;
                  ¾ Four did not contain signed lead-based paint disclosure forms;
                  ¾ Five did not contain adequate documentation to support income;
                  ¾ Two did not contain HUD Form 214, Declaration of United States
                    Citizenship;
                  ¾ Two did not contain housing assistance payments contracts;
                  ¾ One did not contain a signed lease.

              The 48 files did not include documentation required by HUD regulations and
              were not consistent with the Authority’s program administrative plan. Appendix
              D of this report details all of the discrepancies identified in the 48 files.

              The Authority’s noncompliance occurred because Authority officials did not have
              controls in place to ensure all documents are included in the file, income is
              verified, and all housing assistance payments are supported. Also, the Authority
              experienced high staff turnover and lacked management oversight.




                                              11
The Authority Made Housing
Assistance Overpayments of
$7,523 and Underpayments of
$7,197



           We reviewed 71 program recipient files from our sample plus files of three
           employees who received program assistance for a total of 74. Thirty-five files (47
           percent) contained at least one of the following incorrect calculations: income,
           housing assistance payments, total tenant payments, utility allowance payments,
           and/or utility allowances. The incorrect calculations resulted in $7,523 in housing
           assistance overpayments and $7,197 in housing assistance underpayments.
           (These amounts may change after the unsupportive costs have been reconciled.)
           Appendix E of this report details all of the housing assistance payment errors
           identified.

           Review of the Authority’s calculations and documentation contained in the tenant
           files (for example, third-party verification forms and paycheck stubs) showed that
           the Authority’s procedures were not always effective in ensuring that rent and
           subsidies were calculated correctly. For example, the following errors were made
           by the program coordinators: underestimating annual income by not using all the
           information provided by the tenants’ employers, not including child support when
           estimating annual income, and using the biweekly method to calculate income
           when documentation in the file clearly indicated that the tenant was paid weekly.
           The errors were missed because the Authority did not have quality control
           procedures in place to ensure that inaccuracies would be detected.

           HUD Handbook 7420.10g, chapter 6, describes the guidelines for calculating rent
           and subsidies. Chapter 22 of the handbook describes the quality control
           procedures necessary for ensuring that the calculations are correct. Specifically,
           chapter 22 requires housing authorities to establish quality control procedures to
           ensure that staff’s daily decision making on tenant eligibility and tenant rent
           complies with program regulations and is based on accurate information.
           Additionally, the procedures should include adequate training of staff and
           monitoring of their performance.

           The Authority can reduce the risk of error associated with calculations of rent and
           subsidies by implementing quality control procedures as required by HUD
           Handbook 7420.10g, chapter 6. The quality control procedures should include
           training and periodic reviews of the work done by program occupancy technicians
           to ensure that income, rent, and subsidies are properly documented.




                                           12
Recommendations

          We recommend that the director of HUD’s Baltimore Public Housing Program
          Hub require the Authority to

          2A.     Implement procedures and controls to ensure that all required
                  documentation is maintained in the Authority’s current tenant files to
                  support housing assistance payments and ensure that calculations are
                  correct.

          2B.     Provide supporting documentation or reimburse HUD’s program $262,287
                  ($240,521 in housing assistance payments and $21,766 in administrative
                  fees) for the unsupported housing assistance payments and administrative
                  fees related to the 48 tenants cited in this finding.

          2C.     Reimburse HUD’s program from nonfederal funds $7,523 for the
                  overpayment of housing assistance.

          2D.     Reimburse the appropriate tenants from nonfederal funds $7,197 for the
                  underpayment of housing assistance.

          2E.     Revise its program’s administrative plan to address how tenants will be
                  reimbursed when an underpayment of housing assistance occurs.




                                           13
                         SCOPE AND METHODOLOGY

We performed the audit from September 2006 through March 2007 at the Authority located in
Newport News, Virginia. The audit was performed in accordance with generally accepted
government auditing standards.

The audit covered transactions representative of operations current at the time of the audit and
included the period January 2004 through March 2006. We expanded the scope of the audit as
necessary. We reviewed applicable regulations and guidance and discussed operations with
management and staff personnel at the Authority.

To determine whether the Authority carried out its operations in accordance with applicable
HUD requirements, we reviewed

   •   Applicable laws; regulations; the Authority’s program administrative plan, effective January
       23, 2004; HUD program requirements at 24 CFR [Code of Federal Regulations] Parts 5, 35,
       982, and 984; and HUD’s Housing Choice Voucher Guidebook 7420.10.

   •   The Authority’s accounting records, annual audited financial statements for 2004 and 2005,
       general ledgers, checks, tenant files, computerized databases, policies and procedures, board
       meeting minutes since January 2004, organizational chart, and its program’s annual
       contributions contract.

   •   HUD’s files for the Authority.

During the audit, we assessed the reliability of computer-processed data relevant to our audit by
comparing the data to hard-copy information. We found the computer-processed data were
sufficiently reliable to meet our audit objectives.

We statistically selected 66 of the Authority’s program units to inspect using a statistical
sampling method developed by our computer audit specialist from the housing assistance
payment check register, which indicated that 1,882 tenants were under lease from August 1 to
August 31, 2006. The 66 units were selected to determine whether the Authority ensured that the
program units met housing quality standards. The sampling criteria used a 90 percent confidence
level, 50 percent estimated error rate, and precision of plus or minus 10 percent.

The sampling results determined that 28 of 66 units (42 percent) materially failed to meet HUD’s
housing quality standards. Materially failed units were those units in which the identified
violation was identified the last time the Authority conducted its inspection. Materiality was
determined by using multiple material violations that predated the Authority’s last inspection but
were not identified by Authority’s inspector, had material 24-hour health and safety violations
that predated the Authority’s last inspection, or were on the last inspection report and the
material violation had not been corrected at the time of our inspection.



                                                14
Based upon the sample size of 66, from a total population of 1,882, an estimate of 42.42 percent
(798) of the population materially failed housing quality standards inspections. The sampling
error is plus or minus 9.88 percent. There is a 90 percent confidence that the frequency of
occurrence of program units materially failing housing quality standards inspections lies between
32.59 and 52.25 percent of the population. This equates to an occurrence of between 613 and
983 units of the 1,882 units in the population. We are using the most conservative numbers
which is the lower limit or 613 units.

The Authority’s January through December 2006 housing assistance payment registers showed
that the average annual housing assistance payment was $6,655. Using the lower limit of the
estimate of the number of units and the average housing assistance payment, we estimated that
the Authority will annually spend $4,079,515 (613 units times $6,655 average payment) for units
that are in material noncompliance with HUD’s housing quality standards. This estimate is
presented solely to demonstrate the annual amount of program funds that could be put to better
use on decent, safe, and sanitary housing if the Authority implements our recommendations.
While these benefits would recur indefinitely, we were conservative in our approach and only
included the initial year in our estimate.




                                               15
                             INTERNAL CONTROLS

Internal control is an integral component of an organization’s management that provides
reasonable assurance that the following objectives are being achieved:

   •   Effectiveness and efficiency of operations,
   •   Reliability of financial reporting, and
   •   Compliance with applicable laws and regulations.

Internal controls relate to management’s plans, methods, and procedures used to meet its
mission, goals, and objectives. Internal controls include the processes and procedures for
planning, organizing, directing, and controlling program operations. They include the systems
for measuring, reporting, and monitoring program performance.



 Relevant Internal Controls


              We determined the following internal controls were relevant to our objective:

              •       Program operations – Policies and procedures that management has
                      implemented to reasonably ensure that a program meets its objectives.

              •       Validity and reliability of data – Policies and procedures that management
                      has implemented to reasonably ensure that valid and reliable data are
                      obtained, maintained, and fairly disclosed in reports.

              •       Compliance with laws and regulations – Policies and procedures that
                      management has implemented to reasonably ensure that resource use is
                      consistent with laws and regulations.

              •       Safeguarding resources – Policies and procedures that management has
                      implemented to reasonably ensure that resources are safeguarded against
                      waste, loss, and misuse.

              We assessed the relevant controls identified above.

              A significant weakness exists if internal controls do not provide reasonable
              assurance that the process for planning, organizing, directing, and controlling
              program operations will meet the organization’s objectives.




                                               16
Significant Weaknesses


           Based on our review, we believe the following item is a significant weakness:

           •      The Authority lacked sufficient procedures and controls to ensure
                  compliance with HUD regulations and/or the Authority’s program
                  administrative plan regarding unit inspections, tenant files, and housing
                  assistance payments (see findings 1 and 2).




                                            17
                                    APPENDIXES

Appendix A

               SCHEDULE OF QUESTIONED COSTS
              AND FUNDS TO BE PUT TO BETTER USE

        Recommendation              Ineligible 1/    Unsupported       Funds to be put
        number                                                2/        to better use 3/
                         1B           $110,850
                         1C                                                $4,079,515
                         2B                              $262,287
                         2C              $7,523
                         2D                                                    $7,197
                       Total          $118,373           $262,287          $4,086,712


1/   Ineligible costs are costs charged to a HUD-financed or HUD-insured program or activity
     that the auditor believes are not allowable by law; contract; or federal, state, or local
     polices or regulations.

2/   Unsupported costs are those costs charged to a HUD-financed or HUD-insured program
     or activity when we cannot determine eligibility at the time of audit. Unsupported costs
     require a decision by HUD program officials. This decision, in addition to obtaining
     supporting documentation, might involve a legal interpretation or clarification of
     departmental policies and procedures.

3/   Recommendations that funds be put to better use are estimates of amounts that could be
     used more efficiently if an OIG recommendation is implemented. This includes
     reductions in outlays, deobligation of funds, withdrawal of interest subsidy costs not
     incurred by implementing recommended improvements, avoidance of unnecessary
     expenditures noted in preaward reviews, and any other savings which are specifically
     identified. In this instance, if the Authority implements our recommendations, it will
     cease to incur program costs for units that are not decent, safe, and sanitary and, instead,
     will expend those funds for units that meet HUD’s standards. Once the Authority
     successfully improves its controls, this will be a recurring benefit. Our estimate reflects
     only the initial year of this benefit.




                                              18
Appendix B

        AUDITEE COMMENTS AND OIG’s EVALUATION

Ref to OIG Evaluation   Auditee Comments




Comment 1




Comment 2

Comment 3




                         19
Comment 4




Comment 5




            20
                          OIG Evaluation of Auditee Comments


Comment 1   The audit evidence showed that 54 of the 66 housing units inspected did not meet
            HUD’s housing quality standards, and 28 units had 98 violations that existed at
            the time of the Authority’s previous inspection. The Authority’s reply does not
            contain sufficient evidence to change the conclusions contained in this audit
            report. Regarding the ground fault circuit interrupter, when our inspector tested
            the ground fault circuit interrupters with his circuit tester, they did not trip. When
            a ground fault circuit interrupter does not trip and stays on, it is because it was
            improperly wired. This would have occurred when the ground fault circuit
            interrupter was first installed, thus a preexisting condition.

Comment 2   The Authority accurately states in its reply that client identifications numbers for
            two photographs were mislabeled and we have corrected this in the final report.

Comment 3   We reviewed all of the documentation the Authority provided during the audit
            including the documentation it is now providing. All of this documentation has
            been appropriately considered in the results and conclusions in this audit report.

Comment 4   The Authority accurately acknowledged that rent reasonableness surveys were not
            in its files. These surveys are required by federal regulations to ensure rents paid
            are reasonable. The related housing assistance payments are therefore classified
            as unsupported costs in this audit report.

Comment 5   The extremely low error rates stated in the Authority’s reply are erroneous and
            misleading. The Authority incorrectly compared the dollar value of errors
            identified in our review of 74 housing choice voucher tenant files with the total
            funding the Authority received for its approximately 2,200 housing choice
            vouchers. The audit showed that 35 of 74 housing choice vouchers files
            reviewed, or 47 percent, contained incorrect calculations. Therefore, the total
            dollar value of payment errors for its approximately 2,200 housing choice
            vouchers could be substantially higher. Additionally, the documentation that the
            Authority provided was not sufficient evidence to clear the tenant calculation
            errors identified in this report with the exception of one client, client identification
            number 16989. The final report has been adjusted to reflect this change.




                                              21
Appendix C
                                         CRITERIA

Finding 1

HUD regulations at 24 CFR [Code of Federal Regulations] 982.152(d) states that HUD may
reduce or offset any administrative fee to a public housing authority, in the amount determined
by HUD, if the authority fails to perform its administrative responsibilities correctly or
adequately under the program, such as not enforcing HUD’s housing quality standards.

HUD regulations at 24 CFR [Code of Federal Regulations] 982.401 require that all program
housing meet HUD’s housing quality standards performance requirements both at
commencement of assisted occupancy and throughout the tenancy.

Finding 2

24 CFR [Code of Federal Regulations] 982.153, Public Housing Authority Responsibilities

The Public Housing Authority must comply with the Public Housing Authority administrative
plan.
24 CFR [Code of Federal Regulations] 982.305, Public Housing Authority Approval of
Assisted Tenancy

(c) When Housing Assistance Payment contract is executed.
    (2) The Public Housing Authority may not pay any housing assistance payment to the owner
    until the Housing Assistance Payment contract has been executed.
     (4) Any Housing Assistance Payment contract executed after the 60 day period is void, and
    the Public Housing Authority may not pay any housing assistance payment to the owner

24 CFR [Code of Federal Regulations] 982.158, Program Accounts and Records

(e) During the term of each assisted lease, and for at least three years thereafter, the Public
Housing Authority must keep:
    (1) A copy of the executed lease;
    (2) The Housing Assistance Payment contract; and
    (3) The application from the family.
(f) The Public Housing Authority must keep the following records for at least three years:
    (1) Records that provide income, racial, ethnic, gender, and disability status data on program
    applicants and participants;
    (4) Unit inspection reports;
    (5) Lead-based paint records as required by part 35, subpart B of this title.
    (7) Records to document the basis for Public Housing Authority determination that rent to
    owner is a reasonable rent (initially and during the term of a Housing Assistance Payment
    contract).

                                                22
24 CFR [Code of Federal Regulations] 982.516, Family Income and Composition: Regular
and Interim Examinations

(A) Public Housing Authority responsibility for reexamination and verification.
    (1) The Public Housing Authority must conduct a reexamination of family income and
    composition at least annually.
    (2) The Public Housing Authority must obtain and document in the tenant file third party
    verification of the following factors, or must document in the tenant file why third party
    verification was not available:
        (i) Reported family annual income;
        (ii) The value of assets;
        (ii) Expenses related to deductions from annual income; and
        (iv) Other factors that affect the determination of adjusted income.
(b) When Public Housing Authority conducts interim reexamination.
    (1) At any time, the Public Housing Authority may conduct an interim reexamination of
    family income and composition.
    (3) Interim examinations must be conducted in accordance with policies in the Public
    Housing Authority administrative plan.
(g) Execution of release and consent.
    (1) As a condition of admission to or continued assistance under the program, the Public
    Housing Authority shall require the family head, and such other family members as the
    Public Housing Authority designates, to execute a HUD-approved release and consent form
    (including any release and consent as required under 5.230 of this title) authorizing any
    depository or private source of income, or any Federal, State or local agency, to furnish or
    release to the Public Housing Authority or HUD such information as the Public Housing
    Authority or HUD determines to be necessary.

24 CFR [Code of Federal Regulations] 982.507, Rent to Owner: Reasonable Rent

(a) Public Housing Authority Determination.
    (1) The Public Housing Authority may not approve a lease until the Public Housing
    Authority determines that the initial rent to owner is a reasonable rent.
    (2) The Public Housing Authority must re-determine the reasonable rent;
        (i) Before any increase in rent to owner;
        (ii) If there is a five percent decrease in the published Fair Market Rent (FMR) in effect
        60 days before the contract anniversary (for the unit size rented by the family) as
        compared with the FMR in effect one year before the contract anniversary; or
        (iii) If directed by HUD.
     (4) At all times during the assisted tenancy, the rent to owner may not exceed the reasonable
    rent as most recently determined by the Public Housing Authority.

(b) Comparability. The Public Housing Authority must determine whether the rent to owner is a
reasonable rent to owner is a reasonable rent in comparison to rent for other comparable
unassisted units. To make this determination, the Public Housing Authority must consider:
    (1) The location, quality, size, unit type, and age of the contract unit; and


                                                23
   (2) Any amenities, housing services, maintenance and utilities to be provided by the owner in
   accordance with the lease.

24 CFR [Code of Federal Regulations] 982.302, Issuance of Voucher; Requesting Public
Housing Authority Approval of Assisted Tenancy

 (c) The family must submit to the Public Housing Authority a request for tenancy approval of
the tenancy and a copy of the lease, including the HUD-prescribed tenancy addendum. The
request must be submitted during the term of the voucher.

24 CFR [Code of Federal Regulations] 5.230, Consent by Assistance Applicants and
Participants

(a) Required consent by assistance applicants and participants. Each member of the family of
an assistance applicant or participant, who is at least 18 years of age, and each family head and
spouse regardless of age, shall sign one or more consent forms.
24 CFR [Code of Federal Regulations] 5.508, Submission of Evidence of Citizenship or
Eligible Immigration Status

(c) Declaration:
    (1) For each family member who contends that he or she is a U.S. citizen or a non-citizen
    with eligible immigration status, the family must submit to the responsible entity a written
    declaration, signed under penalty of perjury, by which the family member declares whether
    he or she is a U.S. citizen or a non-citizen with eligible immigration status.
        (i) For each adult, the declaration must be signed by the adult.
        (ii) For each child, the declaration must be signed by an adult residing in the assisted
        dwelling unit who is responsible for the child.
    (2) For Housing covered programs: The written declaration may be incorporated as part of
    the application for housing assistance or may constitute a separate document.

24 CFR [Code of Federal Regulations] 35.92, Certification and Acknowledgment of
Disclosure

(b) Lessor requirements. Each contract to lease target housing shall include, as an attachment or
within the contract, the following elements, in the language of the contract (e.g., English,
Spanish):

   (1) A Lead Warning Statement with the following language:
   Housing built before 1978 may contain lead based paint. Lead from paint, paint chips, and
   dust can pose health hazards if not managed properly. Lead exposure is especially harmful to
   young children and pregnant women. Before renting pre-1978 housing, lessors must disclose
   the presence of lead-based paint and/or lead-based paint hazards in the dwelling. Lessees
   must also receive a federally approved pamphlet on lead poisoning prevention.
   (2) A statement by the lessor disclosing the presence of known lead based paint and/or lead-
   based paint hazards in the target housing being leased or indicating no knowledge of the
   presence of lead-based paint and/or lead-based paint hazards. The lessor shall also disclose

                                                24
   any additional information available concerning the known lead-based paint and/or lead
   based paint hazards, such as the basis for the determination that lead-based paint and/or lead-
   based paint hazards exist in the housing, the location of the lead-based paint and/or lead-
   based paint hazards, and the condition of the painted surfaces.
   (3) A list of any records or reports available to the lessor pertaining to lead-based paint
   and/or lead-based paint hazards in the housing that have been provided to the lessee. If no
   such records or reports are available, the lessor shall so indicate.
   (4) A statement by the lessee affirming receipt of the information set out in paragraphs (b)(2)
   and (b)(3) of this section and the lead hazard information pamphlet required under United
   States Code 15.2696.
   (5) When any agent is involved in the transaction to lease target housing on behalf of the
   lessor, a statement that:
       (i) The agent has informed the lessor of the lessor’s obligations under 42 United States
       Code 42.4852d; and
       (ii) The agent is aware of his/her duty to ensure compliance with the requirements of this
       subpart.
   (6) The signatures of the lessors, agents, and lessees certifying to the accuracy of their
   statements to the best of their knowledge, along with the dates of signature acknowledgment
   information.
   (1) The seller, and any agent, shall retain a copy of the completed attachment required under
   paragraph (a) of this section for no less than 3 years from the completion date of the sale.
   The lessor, and any agent, shall retain a copy of the completed attachment or lease contract
   containing the information required under paragraph (b) of this section for no less than 3
   years from the commencement of the leasing period.

24 CFR [Code of Federal Regulations] 5.216, Disclosure and Verification of Social Security
and Employer Identification Numbers

(a) Disclosure: assistance applicants. Each assistance applicant must submit the following
information to the processing entity when the assistant applicant’s eligibility under the program
involved is being determined:
    (1)(i) The complete and accurate Social Security Number assigned to the assistant applicant
    and to each member of the assistant applicant’s household who is at least six years of age.

24 CFR [Code of Federal Regulations] 5.218, Penalties for Failing to Disclose and Verify
Social Security and Employer Identification Numbers

(a) Denial of eligibility: assistance applicants and individual owner applicants. The processing
entity must deny the eligibility of an assistance applicant or individual owner applicant in
accordance with the provisions governing the program involved, if the assistance or individual
owner applicant does not meet the applicable Social Security Number disclosure, documentation
and verification, and certification requirements specified in 5.216.
(b) Denial of eligibility: entity applicants. The processing entity must deny the eligibility of an
entity applicant in accordance with the provisions governing the program involved; if:
    (1) The entity applicant does not meet the applicable Employer Identification Number
    disclosure and verification requirements specified in 5.216; or

                                                25
   (2) Any of the officials of the entity applicant referred to in 5.216(c) does not meet the
   applicable Social Security Number disclosure, and documentation and verification
   requirements specified in 5.216.
   (d) Termination of assistance or tenancy: participants. The processing entity must terminate
   the assistance or tenancy, or both, of a participant, in accordance with the provisions
   governing the program involved, if the participant does not meet the applicable Social
   Security Number disclosure, documentation and verification, and certification requirements
   specified in 5.216.


Consolidated Annual Contributions Contract
Section 10, HUD Regulations

(b). The Housing Authority must comply with its HUD-approved Administrative Plan, Equal
Housing Opportunity Plan, and HUD-approved Program Funding Applications.

The Authority’s Section 8 Administrative Plan, Chapter 2, Eligibility for Admission,
Section D

Families are required to provide verification of Social Security Numbers for all family members
age 6 and older prior to admission, if they have been issued a number by the Social Security
Administration. This requirement also applies to persons joining the family after admission to
the program.

The Authority’s Section 8 Administrative Plan, Chapter 7, Verification

HUD authorizes the Authority to use five methods to verify family information and specifies
family information and specifies the circumstances in which each method will be used. In
general HUD requires the Authority to use the most reliable form of verification that is available
and to document the reasons when the Authority uses a lesser form of verification. In order of
priority, the forms of verification that may be used are:

   •   Up-front Income Verification (UIV) whenever available
   •   Third-party Written Verification
   •   Third-party Oral Verification
   •   Review of Documents
   •   Self-Certification




                                                26
The Authority’s Section 8 Administrative Plan, Chapter 11, Owner Rents, Rent
Reasonableness, and Payment Standard, Section C

The Housing Authority will not approve a lease until the NNRHA [the Authority] determines
that the initial rent to the owner is a reasonable rent. The Housing Authority must determine the
reasonable rent before any increase in the rent to owner, and if there is a five percent decrease in
published FMR [fair market rent] in effect 60 days before the contract anniversary (for unit size
rented by the family) as compared with the FMR in effect one year before the contract
anniversary.

The Authority’s Section 8 Administrative Plan, Chapter 7, Verification

It is required that all adult applicants and participants sign HUD form 9886, Authorization for
Release of Information. The purpose of HUD form 9886 is to facilitate automated data
collection.




                                                 27
Appendix D

                       RESULTS OF TENANT FILE REVIEWS




                                                                                                       Housing assistance payments




                                                                                                                                                                                                     Housing assistance payments
                                                                                                       contract present and signed
                                                 supporting tenant income

                                                                            Lease present and signed
                        Certification Claiming




                                                                                                                                                                        survey to support rent
                                                                                                                                                                        Rent reasonableness
                        to Be a U.S. Citizen,




                                                                                                                                     Lead-based paint
       Tenant number




                                                 Documentation




                                                                                                                                                        Reexamination




                                                                                                                                                                                                     not supported
                                                                                                                                     disclosure
                        Form 214




                                                                                                                                                                        increase
     008516                                                                                                                                                                    X                 $      12,115
     008565                                                                                                                                                                    X                 $       2,002
     008682                                                                                                                                                                    X                 $       2,710
     007174                                                                                                                                                                    X                 $       1,996
     013914                                                                                                                                                                    X                 $       2,180
     016205                                                                                                                                                                    X                 $       5,480
     013237                                                                                                                                             X                      X                 $      10,774
     012066                                                                                                                                                                    X                 $       1,950
     021713                                                                                                                                                                    X                 $           0
     020252                                                                                                                                                                    X                 $       4,110
     012128                                                                                                                                                                    X                 $       4,503
     013767                                                                                                                                                                    X                 $       4,896
     019439                                                                                                                                                                    X                 $          57
     020799                                                                                                                                                                    X                 $       4,550
     019213                                                                                                                                                                    X                 $       9,656
     021201                                                                                                                                             X                      X                 $       6,542
     025424                                                                                                                                                                    X                 $       7,260
     031227                                                                                                                                                                    X                 $       3,432
     024480                                                                                                                                                                    X                 $      10,751
     030688                                                                                                                                                                    X                 $       3,424
     029104                                                                                                                                                                    X                 $         864
     022304                                                                                                                                                                    X                 $       3,031
     026830                                                                                                                                                                    X                 $         774
     030929                                                                                                                                             X                      X                 $       1,651
     028863                                                                                                                                                                    X                 $       2,575
     028967                                                                                                                                                                    X                 $      11,082
     015254                                                                                                   X                                                                X                 $      15,864

                                                                                                            28
       RESULTS OF TENANT FILE REVIEWS CONTINUED




                                                                                                           Housing assistance payments
                                                                                                           contract present and signed
                                                     supporting tenant income

                                                                                Lease present and signed




                                                                                                                                                                                                         payments not supported
                            Certification Claiming




                                                                                                                                                                            survey to support rent
                                                                                                                                                                            Rent reasonableness
                            to Be a U.S. Citizen,




                                                                                                                                                                                                         Housing assistance
                                                                                                                                         Lead-based paint
            Tenant number




                                                     Documentation




                                                                                                                                                            Reexamination
                                                                                                                                         disclosure
                            Form 214




                                                                                                                                                                             increase
         015806                                                                                                   X                                         X                      X                 $   10,209
         017470                                                                                                                                                                    X                 $    5,648
         019001                                                                                                                                             X                      X                 $    9,370
         024199                                                                                                                                             X                      X                 $   12,405
         024324                                                                                                                                                                    X                 $    1,572
         025299                                                                                                                                                                    X                 $    1,053
         027762                                                                                                                                                                    X                 $      996
         028028                                            X                    X                                                                                                  X                 $   11,961
         032974                                                                                                                                                                    X                 $    2,450
         024862                    X                                                                                                         X              X                      X                 $    6,948
         009272                                                                                                                              X
         009599                                                                                                                              X                                     X                 $ 10,983
         011797                                            X                                                                                                                                         $ 1,200
         021179                                                                                                                              X
         021731                                                                                                                                             X                                        $ 1,671
         028245                                            X                                                                                                                                         $ 4,360
         031622                    X                                                                                                                                                                 $ 10,535
         025452                                            X                                                                                                                                         $ 1,267
         016152                                                                                                                                                                    X                 $ 3,300
         022451                                                                                                                                                                    X                 $ 5,364
         024482                                            X                                                                                                                                         $ 5,000
         Totals                     2                      5                     1                                 2                          4              8                    40                 $240,521


Note: An “X” identifies the items that are missing from the tenant’s file.




                                                                                                                     29
Appendix E

             HOUSING ASSISTANCE PAYMENT ERRORS


 Client ID   Reexamination      Authority’s    OIG’s HAP Total under-   Total
             date               HAP*           calculation payment      overpayment
                                calculation
  009272       9/1/2005             $282           $295       $ 91
               9/1/2004             $284           $293       $ 108
               9/1/2003             $276           $271                    $ 40
  009599       4/1/2004             $417           $348                    $ 828
  012066       12/1/2005            $652           $760       $ 216
               7/1/2003             $435           $438       $ 18
  012128       12/1/2005            $295           $ 57                    $   952
               12/1/2004            $170           $135                    $   385
               12/1/2003            $182           $129                    $   106
  012939       4/1/2004             $453           $404                    $   392
  013237       8/1/2005             $556           $544                    $    84
  015254       3/1/2006             $508           $519       $    11
  015806       11/1/2004            $415           $405                    $    90
               8/1/2004             $415           $417       $   6
  019213       12/1/2005            $408           $545       $ 137
  019439       6/1/2003             $ 61           $ 13                    $ 240
  020799       1/23/2004            $531           $521                    $ 20
  021179       12/1/2004            $563           $698       $1,620
  021201       7/1/2005             $707           $695                    $ 24
               8/1/2004             $542           $539                    $   3
  021731       9/1/2004             $341           $329                    $ 144
  022788       8/1/2003             $517           $511                    $   6
  023336       9/1/2004             $456           $640       $ 552
               6/1/2004             $456           $640       $ 552
  024000       10/1/2005            $449           $495       $ 276
               10/1/2004            $667           $650                    $ 204
  024199       6/1/2003             $437           $441       $    20
  025972       10/7/2005            $436           $445       $    45
               11/1/2004            $403           $418       $   180
               11/1/2003            $407           $420       $   130
  028028       7/1/2005             $462           $480       $   162
  028245       7/1/2004             $225           $231       $    18

 * Housing assistance payment



                                              30
 HOUSING ASSISTANCE PAYMENT ERRORS (CONTINUED)


Client ID   Reexamination   Authority’s   OIG’s HAP Total under-   Total
            date            HAP           calculation payment      overpayment
                            calculation
 030688      8/1/2005           $428           $443      $ 120
             8/6/2004           $400           $411      $ 121
             11/20/2003         $471           $481      $ 40
 031227      3/1/2005           $286           $240                   $ 552
 028967      1/1/2006           $342           $294                   $ 144
 007070      5/1/2005           $669           $659                   $ 10
 007083      2/1/2005           $497           $583      $1,032
             2/1/2004           $442           $529      $1,044
 007174      12/1/2004          $572           $616      $ 528
 007964      1/1/2006           $143           $145      $    6
 008516      12/1/2005          $555           $475                   $ 320
             12/1/2004          $457           $435                   $ 264
             12/1/2003          $401           $383                   $ 198
 008565      12/1/2005          $ 79           $120      $ 164
             12/1/2003          $191           $ 76                   $1,380
 008682      11/1/2005          $311           $296                   $ 75
             4/1/2005           $243           $228                   $ 105
 019959      12/1/2004          $694           $689                   $ 30
 029104      5/1/2004           $693           $686                   $ 35
 023351      12/1/2005          $545           $322                   $ 892
 Totals                                                  $7,197       $7,523




                                          31
